0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Reply to Respondents'
Opposition Briefs in 19-23, Rockwood Casualty
Insurance Company, Insurer of Hidden Splendor
Resources, Inc. v. Director, Office of Workers'
Compensation Programs, United States Department of
Labor and Tony Kourianos, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 11th day of October, 2019:
Cheryl L. Intravaia
Counsel of Record
FEIRICH/MAGER/GREEN/RYAN
2001 West Main Street
P.O. Box 1570
Carbondale, IL 62903
(618) 529-3000
cintravaia@fmgr.com

Counsel for Petitioner Rockwood
Rita Roppolo
Gary Stearman
William M. Bush
United States Department of Labor
Office of the Solicitor
N-2119
200 Constitution Avenue NW
Washington, DC 20210-0000
202-693-5664
blls-sol@dol.gov
roppolo.rita@dol.gov
stearman. gary@dol.gov
bush. william.m@dol.gov

!

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

: (800) 890.5001
: www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

KERSHNER, J.D.

General Counsel
Benefits Review Board
Office of the Clerk of the Appellate Boards
200 Constitution Avenue, NW, Room S-5220
Washington, DC 20210
202-693-6300
shepherd. thomas@dol.gov
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent, Director, Office of Workers'
Compensation Programs, United States Department of
Labor
Joseph E. Wolfe
Brad Austin
Wolfe Williams & Reynolds
470 Park Avenue
P.O. Box 625
Norton, VA 24273
276-679-0777
baustin@wwrrlawfirm.com
usdcadminbl@wwrrlawfirm.com
jwolfe@wwrrlawfirm.com

Victoria S. Herman
Wolfe Williams & Reynolds
28 Cross Roads Dr.
Mount Hope, WV 25880
276-870-2717
Vherman@wwrrlawfirm.com

Counsel for Respondent, Tony Kourianos

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 11, 2019.

Julie~ e r hner
Beck r G
gher Legal Publishing, Inc.
8790
. ·nor s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio

My Commission Expires
February 14, 2023

